OIG Investigative Reports, Hammond, IN May 18, 2010 -Local Businesswoman Indicted for Defrauding the Federal E-Rate Program and for Theft of Public Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney David Capp
Northern District of Indiana
5400 Federal Plaza, Suite 1500
Hammond, Indiana 46320
Hammond
FOR IMMEDIATE RELEASE:
May 18, 2010
www.usdoj.gov/usao/inn/
South Bend
Fort Wayne
Contact: Mary L. Hatton
Phone: (219) 937-5500
Fax: (219) 852-2770
Local Businesswoman Indicted for Defrauding the Federal E-Rate Program and for Theft of Public Funds
Hammond, Indiana— Donna P. English, d/b/a/ Project Managers, Inc. (PMI), was charged in an indictment unsealed today with defrauding the Federal Communications Commission’s (FCC) E-Rate Program and the River Forest Community School District (RFCSC), located in Hobart, Indiana. English, d/b/a/ PMI, was also charged with the theft of public money from the U.S. Department of Housing and Urban Development (HUD) that she received as a result of her employment as a technology consultant for the Michigan City Housing Authority, located in Michigan City, Indiana.
According to the indictment, Donna P. English, 52, of Michigan City, Indiana, defrauded the E-Rate Program and RFCSC by submitting false invoices and information to the E-Rate Program, causing RFCSC to submit false information to the E-Rate Program, and accepting payments for services not provided. The indictment further alleges that English accepted “cash advances” from RFCSC for her purported E-Rate services and did not return the cash advances once she received payment from the E-Rate Program. The indictment states that to carry out the fraudulent scheme, English used or caused the use of interstate wire transmissions and the U.S. mail.
English was also charged with felony theft of public funds which were paid to her for technology products and services that English and PMI failed to provide to the Michigan City Housing Authority.
The E-Rate Program, created by Congress in the Telecommunications Act of 1996, provides funds to schools, school districts, and libraries to assist them in connecting to and utilizing the Internet and telephone services. The E-Rate Program is funded by money collected from telecommunications carriers and telephone users, and is administered by the Universal Service Administrative Company (USAC), a not-for-profit corporation acting under the oversight of the FCC. Depending on the financial condition of the applicant, the E-Rate Program can pay up to 90 percent of an applicant’s eligible service costs.
This case was investigated by the Antitrust Division of the United States Department of Justice, the United States Department of Education Office of Inspector General, the United States Postal Inspection Service, the Indiana State Police, the Federal Communications Commission Office of Inspector General, and the Housing and Urban Development Office of Inspector General. This case is being prosecuted by Assistant United States Attorney Toi Houston, and Jennifer Dixton, Trial Attorney, Anti-Trust Division.
The United States Attorney's Office emphasized that an Indictment is merely an allegation and that all persons charged are presumed innocent until and unless proven guilty in court.
The specific sentence in each case to be imposed upon conviction will be determined by the judge after a consideration of federal sentencing statutes and the Federal Sentencing Guidelines.
Printable view
Last Modified: 05/26/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov